Office of Inspector General
U.S. Department of Labor
Office of Audit



               Limited Scope Audit
              of Controls Over the
              Office of Workforce
                     Security
              UI Weekly Claims Press




                           Final Report Number: 03-00-011-03-315
                           Date Issued:           SEP 28 2000
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




                                              TABLE OF CONTENTS


ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND, OBJECTIVES, AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

1.    The Embargoed Data and the UI Weekly Claims Press Release Are
      Processed and Produced in an Unsecured Office Environment . . . . . . . . . . . . . . . . . . . . . . . . . 8

             Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
             Agency’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
             Auditor’s Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

2.    There Are Security Vulnerabilities in the Procedures
      for Delivering the UI Weekly Claims Press Release Package to
      DOL Officials the Day Before the Official Release Time . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

             Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
             Agency’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
             Auditor’s Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

3.    A Library Management System Is Not Used to Track Multiple Versions
      of Software Production Programs Used to Compile the Data . . . . . . . . . . . . . . . . . . . . . . . . . 12

             Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
             Agency’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
             Auditor’s Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

4.    There Is No Security Clearance Policy for Individuals
      With Access to Embargoed Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

             Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


U.S. Department of Labor - Office of Inspector General                                                                             Page i
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




           Agency’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
           Auditor’s Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

5.   Situations Can Occur Where One Person Controls the Entire
     UI Weekly Claims Press Release Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

           Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
           Agency’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
           Auditor’s Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

6.   There Are No Formal Procedures for Responding
     to Security Incidents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

           Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
           Agency’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
           Auditor’s Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

7.   The ETA LAN Server Administered by OTIS Does Not Have the Security
     Needed to Store the Embargoed UI Weekly Claims Press Release
     and Supporting Documents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

           Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
           Agency’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
           Auditor’s Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

AGENCY’S RESPONSE TO DRAFT AUDIT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22




U.S. Department of Labor - Office of Inspector General                                                                          Page ii
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




                                      ACRONYMS


              DDSS          Division of Data Systems Support

              DLMS          Department of Labor Manual Series

              DOL           U.S. Department of Labor

              DRR           Division of Research and Reporting

              ETA           Employment and Training Administration

              FISCAM        Federal Information System Controls Audit Manual

              GAO           General Accounting Office

              LAN           local area network

              NACI National Agency Check and Inquiries

              OFMA          Office of Financial Management Audits

              OIG           Office of Inspector General

              OIPA          Office Information and Public Affairs

              OTIS          Office of Technology and Information Services

              OWS           Office of Workforce Security

              NIST          National Institute of Standards and Technology

              SQL           structured query language

              UI            Unemployment Insurance




U.S. Department of Labor - Office of Inspector General                         Page iii
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




                                   EXECUTIVE SUMMARY

Background

The Unemployment Insurance (UI) Weekly Claims Press Release is issued by the
U.S. Department of Labor (DOL) every Thursday morning at 8:30 a.m. The UI Weekly Claims Press
Release contains the National total of initial claims for UI and is one of the leading economic indicators
that may affect the financial and monetary markets. Thus, the data in the press release are sensitive and
embargoed from the time it is first compiled on Tuesday afternoon until the official release time on
Thursday morning. As a result, there is a need to protect the data and the UI Weekly Claims Press
Release from unauthorized use and release while it is in embargoed status.

States report initial UI claims (the data) to the DOL, Employment and Training Administration (ETA).
Within ETA, the Office of Workforce Security (OWS), Division of Research and Reporting (DRR) is
responsible for collecting and compiling the data and producing the
UI Weekly Claims Press Release. DRR completes its summarization of the data approximately 40
hours before the official release time. The day before the UI Weekly Claims Press Release is released,
DRR produces a package which contains the UI Weekly Claims Press Release and supporting
documents and distributes it to four high-level DOL officials for their review and information.
Approximately 2 hours before the release, copies of the UI Weekly Claims Press Release are delivered
by the print shop to the DOL Office of Information and Public Affairs (OIPA). OIPA is responsible for
issuing the UI Weekly Claims Press Release at the prescribed time in the DOL press room.

Two computer systems are used in the UI Weekly Claims Press Release process. The data are
collected and compiled on an OWS National Office computer operated by the Division of Data
Systems Support (DDSS). The UI Weekly Claims Press Release and supporting documents are
stored on an ETA local area network (LAN) server administered by the Office of Technology and
Information Services (OTIS).

Audit Results

The Office of Inspector General (OIG) performed a limited scope audit to assess (1) the internal
controls used to ensure the accuracy and completeness of the data used to produce the
UI Weekly Claims Press Release, and (2) the internal controls over issuing the UI Weekly Claims
Press Release and safeguarding the embargoed information against unauthorized use or early release to
the public (prerelease). Our audit covered all aspects of the UI Weekly Claims Press Release process,
from the compiling of the data by DRR to the release of the UI Weekly Claims Press Release by
OIPA.


U.S. Department of Labor - Office of Inspector General                                             Page 1
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




We found that controls were adequate to ensure the accuracy and completeness of the information
contained in the UI Weekly Claims Press Release. The OWS staff responsible for preparing the UI
Weekly Claims Press Release followed prescribed procedures and recognized the importance of
protecting the embargoed information. However, we found several significant control weaknesses that
must be corrected to adequately safeguard the information against unauthorized use or prerelease to the
public.

There are internal control weaknesses in three principal areas: (1) Procedures used by OWS to
process the data and produce UI Weekly Claims Press Release; (2) LAN server security; and (3)
OIPA’s press release procedures.

Data Processing and Report Production

       •   The embargoed data and UI Weekly Claims Press Release are processed and produced in
           an unsecured office environment.

       •   There are security vulnerabilities in the procedures used to deliver advance copies of the UI
           Weekly Claims Press Release package to the four high-level DOL officials the day before
           the UI Weekly Claims Press Release is officially released.

       •   A library management system is not used to track multiple versions of software production
           programs used to compile the data.

       •   There is no security clearance policy for individuals with access to embargoed data.

       •   Situations can occur where one person controls the entire UI Weekly Claims Press Release
           process.

       •   There are no formal procedures for responding to security incidents.

LAN Server Security

The ETA LAN server has several weaknesses that compromise the security level needed for
embargoed documents.

       •   An excessive number of network administrators have access to the server containing the
           embargoed documents.


U.S. Department of Labor - Office of Inspector General                                            Page 2
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




       •   The embargoed documents are not encrypted while stored on the server.

       •   Periodic security evaluations using a security software package are not performed.

OIPA Press Release Procedures

Hard copies of the UI Weekly Claims Press Release are not secure for a short period of time before
the scheduled release to the press corps and there is no assurance that the press corps’ computer
modems are disconnected until the release time. A separate report, with recommendations for
corrective actions, will be provided to OIPA.

Recommendations

Following are the recommendations for the Assistant Secretary for Employment and Training to
correct the internal control weaknesses found in OWS:

       •   Create a restricted access office area for processing the embargoed data and producing the
           UI Weekly Claims Press Release. The restricted access office area should be isolated from
           the general office work area and should include a printer and safe.

       •   Strengthen the procedures used to deliver the advance copies of the UI Weekly Claims
           Press Release package by requiring:

           S a “Confidential Cover Sheet” (DL 1-350) be used for the packages containing
             embargoed data,

           S delivery be made only when the authorized DOL official is present, and

           S a signed receipt be obtained from the person receiving the package and the receipt be
             maintained on file by DRR.

       •   Implement a library management system to ensure that the latest versions of structured
           query language (SQL) programs are being used to produce the UI Weekly Claims Press
           Release, and store the SQL programs in a single directory with access limited to DRR staff
           responsible for processing the data.




U.S. Department of Labor - Office of Inspector General                                          Page 3
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




        •   Develop and implement a security clearance policy for individuals with access to
            embargoed data. The policy should ensure that:

            S the sensitivity levels for all individuals, including contract staff, with access to embargoed
              data are classified as high risk,

            S the appropriate security clearances are obtained for these individuals, and

            S the sensitivity of position classifications and security clearances are continually
              monitored.

        •   Ensure that the DRR Reporting Team Leader and staff assistant responsibilities are always
            performed by different individuals.

        •   Develop and implement formal incident response procedures that ensure the proper officials
            are notified, appropriate action is taken to secure the data, and the incident is investigated
            to identify internal control weaknesses.

        •   Discontinue using the ETA LAN to store the embargoed UI Weekly Claims Press Release
            and supporting documents before the official release time. Instead, use a stand-alone
            computer located in a secure area, and ensure that:

            S procedures are developed and implemented to back up the files on a regular basis,

            S adequate access controls are used, and

            S all files containing embargoed information are encrypted.

Agency’s Response

In the response to our draft report, the Assistant Secretary for Employment and Training stated that,
while ETA did not view the findings as significant control weaknesses, they are important concerns and
will be addressed as far as possible to implement the needed changes. ETA agreed that it would be
desirable to create a restricted office area but at the current time there are severe limitations on space
availability. The space where the embargoed data and the UI Weekly Claims Press Release are
processed and produced is scheduled to be reconfigured in 2002. The current space plans will be
reviewed to see if they can be altered at least to allow the unit to be located in an area that does not
have major traffic. Additionally, ETA is looking into the technical feasibility of establishing a stand-
alone system to store the embargoed UI Weekly Claims documents before release time. Concerning

U.S. Department of Labor - Office of Inspector General                                               Page 4
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




security clearances, ETA stated that the Federal staff currently working on the UI Weekly Claims Press
Release Process have been doing so for a long time. Therefore, ETA does not believe that a security
clearance investigation is warranted for them. However, ETA will implement a policy to require a
background investigation for any new employee who has access to the embargoed data. Concerning
the process used to deliver UI Weekly Claims Press Release package, ETA stated that receiving DOL
officials will be contacted before the package is delivered and this will negate the necessity for the
“Confidential Cover Sheet” (DL 1-350) and a signed receipt from the recipient. ETA agreed to
implement the remaining report recommendations. ETA’s entire response is included at the end of this
report.

Auditor’s Conclusion

We disagree with ETA’s conclusion that the findings in the report are not significant control
weaknesses. Because the UI Weekly Claims Press Release contains embargoed data, it is critical that
the data be protected until it is released at the prescribed time. ETA must recognize that in managing
security of sensitive information, the risks associated with the UI Weekly Claims Press Release process
should be identified and reduced. Unauthorized use and disclosure of the embargoed data and the UI
Weekly Claims Press Release can effect the financial markets and damage DOL’s reputation for
managing sensitive information. Therefore, it is necessary that ETA take appropriate measures to
protect the embargoed data and press release and minimize the risk against unauthorized use and
disclosure. By failing to recognize the significance of the report findings and the need for timely
corrective action, ETA is accepting more risk than is necessary under the circumstances. We believe
that ETA must take immediate corrective action, as recommended in this report, to improve the security
over the UI Weekly Claims Press Release process.




U.S. Department of Labor - Office of Inspector General                                         Page 5
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




                   BACKGROUND, OBJECTIVES, AND SCOPE

Background

The UI Weekly Claims Press Release is issued by DOL to the press every Thursday morning at 8:30
a.m. The UI Weekly Claims Press Release contains the National total of initial claims for UI and is one
of the leading economic indicators that may affect the financial and monetary markets. Thus, the data in
the press release are sensitive and embargoed from the time it is first compiled on Tuesday afternoon
until the official release time on Thursday morning. As a result, there is a need to protect the data and
the UI Weekly Claims Press Release from unauthorized use or prerelease while it is in embargoed
status. Users of the UI Weekly Claims Press Release include the Federal Reserve, the Council of
Economic Advisors, Congress, business organizations, brokerage houses, investment bankers, and the
media.

The source of the sensitive data in the UI Weekly Claims Press Release is the initial claims data
reported by the states to ETA. An initial claim is a claim for UI filed by an unemployed individual after
separation from an employer. Within ETA, the OWS DRR is responsible for collecting and compiling
the initial claims data and producing the UI Weekly Claims Press Release. The states report the initial
claims data on the ETA 538, “Advance Weekly Initial and Continued Claims Report.” The majority of
the ETA 538 data is reported via an electronic entry and transmittal system which is housed on state-
operated OWS SUN computers. Each of the state computers is polled nightly by the OWS National
Office computer to pick up the data submitted the previous day.

DRR completes its summarization of the initial claims data approximately 40 hours before the official
release time. Once the data are summarized, DRR produces a package which consists of the UI
Weekly Claims Press Release and supporting documents. The day before official release time, the UI
Weekly Claims Press Release package is distributed to the Deputy Assistant Secretary for Employment
and Training, the Director of OWS, the DOL Chief Economist, and the ETA Office of Public Affairs
for their review and information. Copies of the UI Weekly Claims Press Release are delivered by the
print shop to OIPA 2 hours before the release. OIPA is responsible for issuing the UI Weekly Claims
Press Release every Thursday morning in the DOL press room.

Two computer systems are used in the UI Weekly Claims Press Release process. The initial claims
data are collected and compiled on an OWS National Office computer operated by DDSS. The UI
Weekly Claims Press Release and supporting documents are stored on an ETA LAN server
administered by OTIS.




U.S. Department of Labor - Office of Inspector General                                            Page 6
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




Objectives

The audit objectives were to assess

        •    the internal controls used to ensure the accuracy and completeness of the data used to
             produce the UI Weekly Claims Press Release, and

        •    the internal controls over issuing the UI Weekly Claims Press Release and safeguarding the
             embargoed information against unauthorized use or prerelease.

Scope

Our audit scope was limited to the processing of data that occurs at the OWS National Office to
produce the UI Weekly Claims Press Release. The audit focused on the internal controls OWS has
implemented over the process of producing and releasing the UI Weekly Claims Press Release. To
accomplish our audit, we gained an understanding of the process and procedures used to produce the
UI Weekly Claims Press Release. We interviewed key staff persons in OWS, DRR, DDSS, OTIS,
and OPA and examined the UI Weekly Claims Procedures Manual. We also observed the actual data
gathering and data entry procedures. Our audit did not include testing of computer controls. For the
OWS Data System, we relied on the results of the computer testing procedures that were performed
by OIG’s Office of Financial Management Audits (OFMA) as part of the DOL’s Fiscal Year 1999
Financial Statements audit. OFMA’s computer controls testing followed the General Accounting
Office (GAO) Federal Information System Controls Audit Manual (FISCAM) General Control
procedures. For the ETA LAN, administered by OTIS, we interviewed staff to gain an understanding
of automated controls over the server used to store the UI Weekly Claims Press Release and
supporting documents.

The audit was performed in Washington, D.C. from March 2000 through April 2000 in accordance
with generally accepted government auditing standards.

We used the following criteria in our audit:

        •    National Institute of Standards and Technology’s (NIST), An Introduction to Computer
             Security: The NIST Handbook, and the NIST, Guide for Developing Security Plans for
             Information Technology Systems.

        •    GAO’s FISCAM and Standards for Internal Control in the Federal Government.

        •    Department of Labor Manual Series (DLMS) 2, Chapter 300, Security Regulations.

U.S. Department of Labor - Office of Inspector General                                           Page 7
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




                      FINDINGS AND RECOMMENDATIONS

 1. The Embargoed Data and the UI Weekly Claims Press
    Release Are Processed and Produced in an Unsecured
    Office Environment


The embargoed data and the UI Weekly Claims Press Release are processed and produced in an
unsecured open office environment. While we concluded that the personnel responsible for producing
and reviewing the UI Weekly Claims Press Release are security-conscious, the level of security needed
for such a sensitive press release is difficult to achieve in an open office environment. We found that
computer screens were visible from aisles and adjoining cubicles. Charts and reports containing
embargoed UI data were printed at a shared printer. We observed a maintenance person at the
entrance of a cubicle while embargoed data was displayed on the computer screen. On two occasions
we observed computer screens, displaying embargoed UI data, left unattended for brief periods of
time. Also, copies of the embargoed UI Weekly Claims Press Release were placed in an unlocked
cubicle cabinet. The cubicle was located near an open doorway that leads to a main corridor in the
DOL building. Printouts containing embargoed data were stored in a safe located in an open work
area.

Physical controls and safeguards are necessary to restrict access to embargoed and sensitive material.
DLMS 2, Chapter 300, Section 352(a) states: “Employees using classified information or responsible
for its custody will take every precaution to prevent deliberate or casual inspection by unauthorized
persons.” Section 353 prescribes security storage standards for confidential information which require
the same storage practices as top-secret information.

The GAO FISCAM, Section AC-3.1 on access controls, considers that physical security controls over
computer resources include computer terminals. Section AC-3.1 provides that unrestricted access be
limited to personnel with a legitimate need to perform their duties. Access to sensitive areas by
maintenance personnel should be restricted and controlled.

Because the UI Weekly Claims Press Release may affect the movement of financial markets, strict
security measures are required to protect the embargoed data and press release prior to their official
release. Processing the embargoed data and preparing the press release in an open office environment
increase the risk of unauthorized access and prerelease.

Recommendation

We recommend that the Assistant Secretary for Employment and Training direct OWS to create a


U.S. Department of Labor - Office of Inspector General                                          Page 8
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




restricted access office area for processing the embargoed UI data and producing the UI Weekly
Claims Press Release. The restricted area should be isolated from the general office work area and
should include a printer and safe.




U.S. Department of Labor - Office of Inspector General                                         Page 9
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




Agency’s Response

ETA agreed that it would be desirable to create a restricted office area but, at the current time, space
availability is severely limited. The space where the embargoed data and the UI Weekly Claims Press
Release are processed and produced is scheduled to be reconfigured in 2002. The current space plans
will be reviewed to see if they can be altered to at least allow for the unit to be located in an area that
does not have major traffic. ETA stated that area will be made as isolated “as possible in a cubicle
setting” and the safe and a printer will be located in this area.

Auditor’s Conclusion

We disagree with ETA’s proposed corrective action plan and the time frame to achieve it. We believe
that prompt action should be taken to ensure that the embargoed data and UI Weekly Claims Press
Release is processed in a secured restricted office environment. This cannot possibly be achieved in a
cubicle setting. ETA’s response demonstrates that management is accepting an unnecessarily high level
of risk over the next 2 years in its approach to safeguard the embargoed data and UI Weekly Claims
Press Release. ETA should establish office space for this function that is physically restricted from the
general work area and limits access to only authorized individuals.




U.S. Department of Labor - Office of Inspector General                                            Page 10
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




 2. There Are Security Vulnerabilities in the Procedures
    for Delivering the UI Weekly Claims Press Release
    Package to DOL Officials the Day Before the Official
    Release Time


There are security vulnerabilities in the procedures used to deliver the UI Weekly Claims Press Release
package to designated DOL officials the day before the UI Weekly Claims Press Release is officially
released. These vulnerabilities could compromise the security of the embargoed data and the UI
Weekly Claims Press Release before the scheduled release time. We found that the required
“Confidential Cover Sheet” (DL 1-350) is not used when the
UI Weekly Claims Press Release package is delivered to the designated DOL officials. Additionally,
the designated DOL officials are not required to be present when the UI Weekly Claims Press Release
package is delivered to their offices, and signed receipts of delivery are not required from the persons
receiving the package.

On Wednesday morning, approximately 24 hours before the official release time, the
UI Weekly Claims Press Release package is hand-delivered to four designated DOL officials for their
review and information. The UI Weekly Claims Press Release package contains copies of the
embargoed UI Weekly Claims Press Release and supporting documents (graphs and a summary
sheet). We identified two weaknesses in the procedures for delivering these packages.

    C   The required “Confidential Cover Sheet” (DL 1-350) is not used when delivering the Weekly
        Claims Press Release packages. Instead, “Confidential” is written on the package envelope.
        DLMS 2, Chapter 300, Section 371(c)(2) requires that the “Confidential Cover Sheet” be
        used when confidential information is carried within DOL. It is our position that using the
        “Confidential Cover Sheet” increases the awareness that the package is important and should
        be handled with the utmost security.

    C   The Weekly Claims Press Release package is normally hand-delivered to the designated DOL
        officials. However, procedures allow the package to be left on the DOL official’s office chair if
        he or she is not present. A signed receipt of delivery is not required. DLMS 2, Chapter 300,
        Section 371(c)(4) provides that a receipt can be used to transmit confidential information if it is
        deemed necessary by the sender. We believe that using a signed receipt is necessary
        considering that the release package contains embargoed information. Additionally, security
        can be increased by implementing a policy that the release package only be delivered when the
        intended official is present.


U.S. Department of Labor - Office of Inspector General                                            Page 11
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




Addressing these vulnerabilities will increase security over the delivery of the UI Weekly Claims
Release package to DOL officials.

Recommendations

We recommend that the Assistant Secretary for Employment and Training direct OWS to strengthen
UI Weekly Claims Press Release package delivery procedures by requiring:

    •   a “Confidential Cover Sheet” (DL 1-350) be used for packages containing embargoed data,

    •   delivery be made only when the authorized DOL official is present, and

    •   a signed receipt be obtained from the person receiving the package and the receipt be
        maintained on file by DRR.

Agency’s Response

ETA stated that it will implement a procedure in which the authorized DOL officials will be notified in
advance that the press release packages are available. The authorized DOL officials will then contact
DRR staff and inform them when they are available to personally receive the package. Then the
package will be hand delivered. This method will ensure that no one other than the recipients will have
any possibility of gaining access to the press release package. ETA also stated that with this
procedure, neither a security cover sheet nor a signed receipt will be necessary.

Auditor’s Conclusion

ETA’s response resolves part of the recommendation that delivery be made only when the authorized
DOL official is present. To close the recommendation, ETA must provide documentation that the
procedures were incorporated into the UI Weekly Claims Procedures Manual.

However, we disagree with ETA’s response that the proposed procedure eliminates the need for the
“Confidential Cover Sheet” DL 1-350, and a signed receipt. DLMS 2, Chapter 300, section 371(c),
Confidential Information, specifically requires that “Hand-carried information will be covered from view
by DL 1-350, Confidential Cover Sheet.” Moreover, DLMS 2, Chapter 300, Section 371 requires a
receipt be obtained for transferring top secret and secret material and it is optional for confidential
material. Considering that the information in the press release package is sensitive and embargoed, a
signed receipt from the authorized official should be obtained and kept on file for subsequent review
and audit.


U.S. Department of Labor - Office of Inspector General                                          Page 12
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




 3. A Library Management System Is Not Used to Track
    Multiple Versions
    of Software Production Programs Used to Compile
 the Data


The DRR staff responsible for processing the embargoed UI data for the Weekly Claims Press Release
has developed their own structured query language (SQL) programs which are used for production and
analysis of the weekly claims figures. New SQL programs are developed or changed as needed. We
found that there is no version control or production library to track and store the SQL programs. DRR
staff stores different versions of the SQL programs in their individual directories. As a result, there is no
assurance that the staff is using the most current versions.

According to GAO FISCAM, Section CC-3.1 on application software development and change
control, library management software provides an automated means of inventorying software, ensuring
that differing versions are not accidently misidentified. Library management software also provides a
means of maintaining a record of software changes.

An up-to-date production library will provide assurance that DRR staff uses the latest SQL versions. It
will also provide a means of maintaining a record of changes made to SQL programs so that
unauthorized changes can be detected. Considering the small number of programs used by the DRR
staff, this can be accomplished using either an automated or manual library management system.

Recommendations

We recommend that the Assistant Secretary for Employment and Training require OWS to:

    •   implement a library management system to ensure that the latest versions of SQL programs are
        being used to produce the UI Weekly Claims Press Release, and

    •   store the SQL programs in a single directory with access limited to DRR staff responsible for
        processing the UI data for the UI Weekly Claims Press Release.




U.S. Department of Labor - Office of Inspector General                                              Page 13
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




Agency’s Response

ETA responded that since the audit, one central directory was established on the computer and it will
be used for processing all UI claims data. ETA stated that the older version of the program will only
be kept until it is verified that the new version works. After verifying that the new version works, the
older version will be deleted from the system to avoid confusion. Thus, it is not necessary to establish a
formal library management system.

Auditor’s Conclusion

ETA’s response resolves the recommendations. The procedures described in the response basically
establish a formal library management system. To close the recommendation, ETA should provide
documentation that the procedures were incorporated into the UI Weekly Claims Procedures Manual.




U.S. Department of Labor - Office of Inspector General                                           Page 14
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




 4. There Is No Security Clearance Policy for Individuals
    with Access to Embargoed Data


There is no formal policy to ensure that all individuals with access to embargoed UI data and the UI
Weekly Claims Press Release have the appropriate security clearances. We found that only 1 of 21
individuals who had access to the embargoed UI Weekly Press Release and/or related data had
appropriate security clearances.

The Federal Personnel Manual FPM, Chapters 731 and 736, contains requirements for various levels
of background investigations for employees with access to sensitive data. Every employee with access
to sensitive data is required to undergo either a Special Background Investigation, Background
Investigation, Limited Background Investigation, Minimum Background Investigation, or a National
Agency Check and Inquiries (NACI) depending on the position risk level (sensitivity level).

Because data in UI Weekly Claims Press Release can affect the movement of the financial markets, we
believe that all individuals who have access to the embargoed data should have a high-risk sensitivity
level and Background Investigation security clearance in order to provide some assurance of employee
integrity.

The following are details of our review of the security clearances performed on individuals who have
access to embargoed data. We did not review the individuals’ sensitivity level designations.

    •   There were six individuals in OWS, DRR with access to the embargoed UI Weekly Press
        Release and related data. Five of the individuals received the standard NACI security
        clearance when they were hired, and the sixth individual, the Division Chief, received a
        Background Investigation security clearance.

    •   There were six individuals in OWS, DDSS with access to the production server used to store
        the weekly claims data obtained from the states. This data forms the basis for the UI Weekly
        Claims Press Release and is considered embargoed. We were told that all six individuals
        received only the standard NACI security clearance.

    •   There were nine individuals in ETA’s OTIS with access to the server used to store the Weekly
        Claims Press Release and supporting documents. Seven of these individuals were contract
        employees. We were told that none of the nine individuals had background checks.

Recommendations

U.S. Department of Labor - Office of Inspector General                                         Page 15
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




We recommend that the Assistant Secretary for Employment and Training require that OWS develop
and implement a security clearance policy for individuals with access to embargoed information in the
UI Weekly Claims Press Release. The policy should ensure that:

    •   the sensitivity levels for all individuals, including contract staff, with access to embargoed data
        are classified as high risk,

    •   the appropriate security clearances are obtained for these individuals, and

    •   the sensitivity of position classifications and employee and contractor security clearances are
        continually monitored.

Agency’s Response

ETA responded that most contractor staff in OWS, DDSS do not currently have security clearances,
however, those with access to the embargoed data do sign affidavits. ETA also stated that contractor
staff has high turnover rates and that the desired background investigation could cost $2,295 per
employee, which increases the cost of the contract. However, ETA stated they will be recompeting the
contract within a year and will add a requirement that the contractor provide this clearance for staff who
has access to embargoed data.

For Federal staff, ETA responded that the individuals currently responsible for the UI Weekly Claims
Press Release have been working on this project for a long time and therefore believe that a clearance
investigation is not warranted for them. However, ETA stated that a policy will be implemented that
requires a background investigation for any new employee who will have access to the embargoed
data. ETA stated that contractors in OTIS would not require clearances if the Weekly Claims Press
Release production is taken off the LAN. (See Finding Number 7.)

Auditor’s Conclusion

We disagree with ETA’s conclusion that background investigations are not warranted for existing
Federal staff. There is no basis in sound security management practices for using the employee’s
length of service as a determining factor for obtaining security clearances. Decisions on security
clearances should be based on access to embargoed data. This includes employees who produce the
weekly claims report or who have access to the embargoed data. All personnel (employees and
contractors) with access permission to computer resources in which embargoed data is stored also
should have background investigations.




U.S. Department of Labor - Office of Inspector General                                              Page 16
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




 5. Situations Can Occur Where One Person Controls the
    Entire UI Weekly Claims Press Release Process


There are situations when the Reporting Team Leader in DRR controls the entire
UI Weekly Claims Press Release process because of the small number of staff on the DRR Reporting
Team. The process includes obtaining and entering weekly claims data from individual states,
producing schedules with the National totals, and reviewing the end products.

Normally, the DRR Reporting Team staff assistant is responsible for obtaining and compiling the
individual state figures and producing the initial schedules. The Team Leader is responsible for
reviewing the embargoed data and advance copies of the UI Weekly Claims Press Release and
distributing them to authorized officials.

We were told that there are situations when the staff assistant is on leave and the Team Leader takes
over all the functions of the Weekly Claims Press Release process. We consider this situation an
internal control weakness because there is no separation of duties.

The GAO Standards for Internal Control in the Federal Government, Control Activities Section,
considers the division of responsibilities among staff an effective method to prevent a single individual
from controlling all aspects of a critical process.

Recommendation

We recommend that the Assistant Secretary for Employment and Training require that OWS ensure
that the Reporting Team Leader and staff assistant responsibilities are always performed by different
individuals.

Agency’s Response

ETA responded that there are always at least two people involved in the process of collecting,
checking, and publishing data and there are four people on the DRR staff who are knowledgeable in the
process. Thus, the DRR Division Chief and a person in another division are available to serve as back
up to the Reporting Team Leader. It is a rare circumstance when one person collects the data and that
same person plus the person who creates the publication check the data. Because it is a rare
circumstance, ETA believes it can function well under the current staffing and backup for this task.




U.S. Department of Labor - Office of Inspector General                                             Page 17
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




Auditor’s Conclusion

ETA’s response did not address our recommendation. To resolve the recommendation ETA must
include in the UI Weekly Claims Procedure Manual a procedure that requires the Reporting Team
Leader and staff assistant responsibilities always be performed by different individuals when key staff
are not available.




U.S. Department of Labor - Office of Inspector General                                           Page 18
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




 6. There Are No Formal Procedures for Responding to
    Security Incidents


There are no formal procedures for responding to security incidents, such as unauthorized use or
prerelease of embargoed data. DRR told us that there have been very few instances where the security
of embargoed data has been jeopardized. In the event of an incident, common sense is used to handle
the situation. Formal procedures should be developed and implemented to ensure that appropriate
action is taken to secure the data and correct the cause of the incident.

Recommendation

We recommend that the Assistant Secretary for Employment and Training require OWS to develop
and implement formal incident response procedures. The procedures must ensure that the proper
officials are notified, appropriate action is taken to secure the data, and the incident is investigated to
identify and correct internal control weaknesses.

Agency’s Response

ETA’s response stated that as a result of the audit, procedures have been developed and implemented
for handling incidents. ETA provided a copy of the procedure that was included in the UI Weekly
Claims Procedure Manual.

Auditor’s Conclusion

This recommendation is closed.




U.S. Department of Labor - Office of Inspector General                                               Page 19
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




 7. The ETA LAN Server Administered by OTIS Does Not Have
    the Security Needed to Store the Embargoed UI Weekly
    Claims Press Release and Supporting Documents.


The UI Weekly Claims Press Release document, summary spreadsheets, and supporting charts are
stored on a server that is part of the ETA LAN which is administered by OTIS. We identified several
weaknesses that compromise the security level needed for embargoed documents. The following are
details of the weaknesses found.

       a. An excessive number of network administrators have access to the server
          containing the embargoed documents.

           The GAO FISCAM, Section AC-2.1, provides that broad or special access privileges,
           such as those associated with operating system software that allow normal controls to be
           overridden, are only appropriate for a small number of users who perform system
           maintenance or handle emergency situations.

           Because the ETA LAN serves all agencies within ETA, there are numerous network
           administrators with access to the server that contains the embargoed UI Weekly Claims
           Press Release. Although the embargoed UI Weekly Claims Press Release is stored in a
           directory with the proper access permission controls limited to the individuals responsible
           for the press release, network administrators also have access to the directory. Within
           OTIS there are two ETA employees and seven contract employees who have network
           administrator access to the server.

           We believe that this is an excessive number of individuals with access permission to
           embargoed data and increases the risk of unauthorized entry into the system, prerelease, or
           manipulation of embargoed data in the UI Weekly Claims Press Release.

       b. The embargoed documents are not encrypted while stored on the server.

           The NIST, Special Publication 800-18, Section 6.GSS.2, defines logical access controls to
           include the use of encryption as a means to prevent unauthorized access to sensitive files.

           Encrypting the embargoed UI Weekly Claims Press Release while it is stored on the ETA
           LAN server would increase assurances against unauthorized access or misuse.


U.S. Department of Labor - Office of Inspector General                                          Page 20
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




        c. Periodic security evaluations using a security software package are not performed.

            The NIST, Special Publication 800-12, Section 9.4.1.1, states that automated tools can be
            used to help find a variety of threats and vulnerabilities, such as improper access controls or
            access control configurations, weak passwords, lack of integrity of the system software, or
            outdated software updates and patches.

            System security requirements are constantly changing with new technologies. Therefore,
            network security should be periodically assessed using a security scanner or similar
            software that takes an automated, proactive approach to detecting security deficiencies
            present in the agency’s computers and networks.

Therefore, we believe that OWS should not store the UI Weekly Claims Press Release and supporting
documents on the ETA LAN because it does not have the internal controls needed to secure
embargoed data.

Recommendations

We recommend that the Assistant Secretary for Employment and Training require OWS to discontinue
using the ETA LAN to store the embargoed UI Weekly Claims Press Release and supporting
documents. Instead, require OWS to use a stand-alone computer located in a secure area and ensure
that

            S   procedures are developed and implemented to backup the files on a regular basis,

            S   adequate access controls are used, and

            S   all files containing embargoed information are encrypted.

Agency’s Response

ETA responded that inquiries are being made with OTIS about the technical feasibility of establishing a
stand-alone system and of still maintaining the needed backups and shared access within the staff versus
what might be required to further isolate the areas of the LAN which are used to increase security. We
expect to be able to accomplish this at the time of the office configuration in 2002.




Auditor’s Conclusion

U.S. Department of Labor - Office of Inspector General                                            Page 21
Limited Scope Audit of Controls Over the Office of Workforce Security
UI Weekly Claims Press Release




The recommendations can be resolved when ETA makes a management decision on the action they
plan to take.




U.S. Department of Labor - Office of Inspector General                                Page 22
